Case: 20-73506, 05/21/2021, ID: 12120309, DktEntry: 15-1, Page 18 of 19
18

CERTIFICATE OF COMPLIANCE WITH LENGTH LIMITATION
____________United States Supreme Court Rule 14..........................

Pursuant to United States Supreme Court Rule 14,1 hereby certify that
this APPELLANT’S “Petition for Rehearing—WRIT of Certiorari to USCA 9th Circuit on COA ”
contain 2,636 words, including footnotes. In making this certification, I have relied on the word count
of the Microsoft WORD for Mac2019 Word processing Program used to prepare this Petition for Writ of
Certiorari.
(Petition for Rehearing must not exceed 3, 000 words - USSC Rule 14 )

Respectfully submitted by the Appellant.
DATED: May 21, 2021
Los Angeles, CA

Signed
ALA& DOUGLAS

Alan Douglas v. Superior Court of California, County of Los Angeles
In the Supreme Court of the United States - Petition for Panel Rehearing Case No.: 20-7424

Case: 20-73506, 05/21/2021, ID: 12120309, DktEntry: 15-1, Page 19 of 19
19

CERTIFICATE OF COUNSEL
I - Alan Douglas In Pro Se- Appellant in the USSC Case No.: 20-7424 — “Douglas v. Superior Court
of California, County of Los Angeles” Certify that the Petition for Panel Rehearing
is presented in good faith and not for delay according to USSC Rule 44.1 and Rule 44.2.
1. The attached Petition for Panel Rehearing briefly stated its ground limited to intervening
circumstances of substantial and controlling effect not previously presented. [Rule 44.1 ]
2.1 declare under penalty of perjury that this “Certificate of Counsel” to support Appellant’s Petition
for Rehearing is true and correct and that this verification was executed on this 21st of May, 2021 in
Los Angeles, CA.
3.Proof of Service of this “Certificate of Counsel” is attached.

Dated: May 21, 2021
Los Angeles, CA

Signed by>
Alan Douglas in Pw5fSe

End of Appellant’s PETITION

Alan Douglas v. Superior Court of California, County of Los Angeles
In the Supreme Court of the United States - Petition for Panel Rehearing Case No.: 20-7424

